                                          I
                                          I
Department of Health and Human Services

       OFFICE OF
  INSPECTOR GENERAL




            FEBRUARY   1993
                      OFFICE OF INSPECI’OR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries sewed by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                          OFFICE OF AUDIT SERVICES

The OIG’S Office of Audit Semites (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                          OFFICE OF INVESTIGATIONS

The OIG’S Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. ‘l’he 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

              OFFICE OF EVALUATION                   AND INSPECI’IONS

The OIG’S Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department,
the Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,
and effectiveness of departmental programs.                                         :

This report was prepared under the direction of Mark R. Yessian, Ph.D., the Regional
Inspector General, and Martha B. Kvaal, Deputy Regional Inspector General, Boston Region,
Office of Evaluation and Inspections. Participating in this project were the following people:

Boston Region                                               Headquarters
David Veroff, Project Leader                                Alan Levine
David Schrag, Lead Analyst

For additionalmpies of this repo~ please contact the Boston Regional Office at
(617) 56S-1050.




—
 Depafiment of Health and Human Services

         OFFICE OF
    INSPECTOR GENERAL




 NATIONAL PRACTITIONER DATA BANK:

USEFULNESS AND IMPACT OF REPORTS

           TO HOSPITALS





           FEBRUARY   1993   OEI-01-90-00520

              EXECUTIVE                          SUMMARY
PURPOSE

The purpose of this study is to assess the utility to hospitals of the information   in the
National Practitioner Data Bank.

BACKGROUND

Since September 1, 1990, the National Practitioner Data Bank has received and
maintained records of malpractice payments and adverse actions taken by hospitals,
other health care entities, licensing boards, and professional societies against licensed
health care practitioners.  It provides hospitals and other health care entities with
information relating to the professional competence and conduct of physicians,
dentists, and other health care practitioners.   It is operated by a contractor to the
Health Resources and Sewices Administration (FIRSA) of the Public Health Setice
(PHS).

Under the Health Care Quality Improvement Act of 1986, hospitals are required to
query the Data Bank about every physician and dentist who applies for privileges.
Hospitals must query about all practitioners with clinical privileges at least once every
two years. They have the option of querying about any practitioner with privileges (or
who is seeking privileges) at any time. The Data Bank information is intended to help
hospitals make decisions about hiring, credentialing, and disciplining practitioners.

There has been much debate about the utility of this information to hospitals and
about how they use it. Some observers note that much of the information was already
readily available through other sources. Critics of the current reporting requirements
have argued that reports of malpractice payments, particularly of small dollar
settlements, are not useful in determining the professional competence or conduct of
practitioners.  Some practitioner groups are worried that Data Bank reports prejudice
hospitals against the reported practitioners, while hospitals and others argue that
hospitals do not make judgments based solely on the reports and that they follow up
on the reports to get more detaiL

This report answers basic questions about the usefulness and impact of the
information in the Data Bank to hospitals at an early stage in the Data Bank’s
operation. The results are based on a survey of hospitals who have received reports
of malpractice payments or adverse actions from the Data Bank. We sampled 200
matches -- instances when a querying hospital received a report of a specific incident
-- from the universe of 19,122 hospital matches from the initiation of the Data Bank
through March 19, 1992 and received 142 responses. our findings can be projected to
this universe of matches. Appendix A gives details of our methodology and provides
information about the reports, practitioners, and hospitals included in this study.




                                             i
FINDINGS

USEFULNESS TO HOSPITAS:           A majo~        of Data Bank reprts were usejid to
hospitals

Measured by both objective and subjective criteria, the Data Bank appears to be
providing valuable information to hospitals.

  �
       Forty percent of Data Bank reports have provided information       previously
       unknown to hospital staffs.

       The Data Bank has delivered accurate reports to hospitals.

  �
       The Data Bank’s average response time has been improving steadily. Over an
       18 month period, median response time has dropped from 123 days to 26 days.

  �
       Hospital officials found 58 percent of Data Bank reports to be useful. As the
       Data Bank’s response time has improved, so has the proportion of reports
       rated useful.

  �
       The most frequently cited reason for Data Bank reports’ usefulness was that
       they confirmed information about practitioners that hospital officials already
       knew. Other reasons cited include the reports’ help in making judgments about
       practitioners’ competency and their provision of information not already known.

  �
       Neither the source of reports nor, for malpractice reports, the payment amount
       affected the proportion of Data Bank reports that hospital officials rated useful.

IMPACT ON DECISIONS: Data Bank reprb rarely led hmpitak to make p-g
&cisions they would not have made without’ the reprts, even when the reprls provided
information that hospital did not already know.

We evaluated impact on decisions by asking hospitals the following question: Would
your decision regarding the practitioner have been different if you had not received
the Data Bank report?

  �
      According to hospital officials, if hospitals had not received the Data Bank
      reports, their privileging decisions would have been different one percent of the
      time.

  �
      Eighty percent of Data Bank reports had little chance to have an impact on
      hospitals’ privileging decisions. Each of these reports either arrived after the
      decision was made or duplicated available information.

  �
      Nineteen percent of Data Bank reports arrived before hospitals’ decisions were
      finalized and contained information that neither the practitioner involved nor


                                            ii
       any other sources had provided, but did not have an impact on hospitals’
       privileging decisions.

RECOMMENDATIONS

our findings indicate that the usefulness and impact of the information in the Data
Bank are strongly affected by the timeliness of the reports. Our recommendations
identify steps that PHS and hospitals need to take to improve the timeliness of Data
Bank reports, since PHS shares the responsibility for timeliness with the hospitals that
query the Data Bank.

The PHS should seek to reduce jiudwr the time between query and rayxms~ and shod
make tti a high ptirity in its next contract for o~ration of the Dati Bank W PHS
shouki pubtih recently estabbm     peflomumce Waters      dzting to response tiine in ti
annual rep~ on the Data Bank

%    Joint Commiksio n for Accreditation of Healthcare Organ&ations (JCAHO) shod
establish guidelines on how qukkly hospital should quq the Data Bank afler receivikg
applkations for pniikges.

COMMENT3 ON THE D~                 REPORT

We received comments on our draft report from the Public Health Service (PHS), the
Assistant Secretary for Management and Budget (ASMB), the Assistant Secretary for
Planning and Evaluation (ASPE), the Joint Commission on Accreditation of
Healthcare Organizations (JCAHO), the American Hospital Association (AHA), and
the American Medical Association (AMA). The PHS and JCAHO are examining
ways to implement the recommendations we directed to them. In appendix C, we
reproduce each set of comments in full and provide our responses to them.




                                            . ..
                                            111
.
                   TABLE                                                 OF CONTENTS
EXECUTIVE SUMMARY

INTRODUCTION         ..-          . . . . . . . . . . . . . . . . . . . . . - . . . . . . . . . . . . . . . . . . . . . . .                                                                                                                1

FINDINGS     .....   . . . . . . . . . . . . . . . . . . . . . . . . - . . . . . . . . . . . . . . . . . . . . . . .                                                                                                                      3

Usefulness to Hospitals               . . .       ...0               .   .   .   .   .    .       .   .      .   .   .   .       .       .   .*   *.*,*    . . . . . . . . . . . . . . . .                                                3

Impact on Decisions . .           .   .   .   .   .      .   .   �   .   .   .   .   .   .        .   .      .   .   .   .       .       .   .* *.*.*      .    ..0.0.                           .0           ..0..               .   .   7

RECOMMENDATIONS                           ....................                                                                               . . . . . . . . . . . . . . . . . . . . . .                                                  12

COMMENTS ONq’HEDRAIV                                                 REPORT                                  ......                          . . . . . . . . . . . . . . . . . . . . . .                                                  14

APPENDICES

A.   Methodology     .   ,.       ..,..                  . . . . . . .               �   -O..*.                          ,00 .* ..*..                      ..            0.,..                   .    .       .       .   .   .   A-1

B.   Summary of Hospitals’ Responses to OIG Mail Survey .                                                                                                  .    .        .       .   .   .   .   .    .       .       .   .   .   B-1

c.   Detailed Comments on the Draft Report and
     OIG Response to the Comments .* ..*..   ..*                                                                                             . . . . . . . ,.            .0...                   .    .       .       .   .   .   c-1

D.   Notes     ...................                                                   . . .            ...0               �   .       .       . . . . . . . .,            ...0.                   �    0....                       D-1



         .




                              .
                            INTRODUCTION
PURPOSE

The purpose of this study is to assess the utility to hospitals of the information   in the
National Practitioner Data Bank.

BACKGROUND

Since September 1, 1990, the National Practitioner Data Bank has received and
maintained records of malpractice payments and adverse actions taken by hospitals,
other health care entities, licensing boards, and professional societies against licensed
health care practitioners.1 It provides hospitals and other health care entities with
information relating to the professional competence and conduct of physicians,
dentists, and other health care practitioners. The Data Bank was established by Title
IV of the Health Care Quality Improvement Act of 1986 (P.L. 99-660), as amended,
and is funded by user fees and Federal outlays. It is operated by Paramax Systems
Corporation (a subsidiary of Unisys Corporation) under contract to the Health
Resources and Sexvices Administration (HRSA) of the Public Health Service (PHS).

Hospitals are required to request information from the Data Bank about every
physician and dentist who applies for appointment.     Hospitals must query about all
medical and dental staff and other health care practitioners with clinical privileges at
least once every two years. They have the option of querying about any practitioner
with privileges (or who is seeking privileges) at any time. The Data Bank is intended
to provide information to hospitals to help them make decisions about hiring, granting
privileges to, and disciplining practitioners.

As of March 19, 1992, hospitals had received, in response to queries, 19,122 reports of
malpractice payments or adverse actions against physicians, dentists, and other health
care practitioners. We summarized in detail the profile of these “matches” in a report
released in April 1992.2

There has been much debate about the utility of this information to hospitals and
about how they use it. Some observers note that much of the information was already
readily available through other sources. Critics of the current reporting requirements
have argued that reports of malpractice payments, particularly of small dollar
settlements, are not useful in determining the professional competence or conduct of
practitioners.  Some practitioner groups are worried that Data Bank reports prejudice
hospitals against the reported practitioners, while hospitals and others argue that
hospitals do not make judgments based solely on the reports and that they follow up
on the reports to get more detail.




                                             1
METHODO~Y

This report answers basic questions about the usefulness and impact of the

information in the Data Bank to hospitals at an early stage in the Data Bank’s

operation. The report does not address the utility of responses from the Data Bank

that state that no information is on file for the practitioners involved. The results are

based on a survey of hospitals that have received reports of malpractice payments or

adverse actions (also known as disciplinary actions) from the Data Bank. We sampled

200 matches -- instances when a querying hospital received a report of a specific

incident -- from the universe of 19,122 hospital matches from the initiation of the Data

Bank through March 19, 1992. We received 142 responses. our findings can be

projected to this universe of matches.


Our sample was stratified to include equal numbers of malpractice and adverse action
reports. Because there have been far more malpractice reports than adverse action
reports received by hospitals, when we analyzed the responses we gave each response
about an adverse action report much less weight than each response about a
malpractice payment report. Appendix A gives details of our methodology and
provides information about the reports, practitioners, and hospitals included in this
study.

This report is one in our series of studies on the National Practitioner Data Bank. In
April 1992, we released two final reports entitled “National Practitioner Data Bank:
Malpractice Reporting Requirements” (OEI-01-90-00521) and “National Practitioner
Data Bank: Profile of Matches” (OEI-01-90-00522). We have also produced a report
on the utility to State licensing boards of Data Bank information (OEI-01-90-O0523).

our review was conducted in accordance with the Interirn Standards for Inspections
issued by the President’s Council on Integrity and Efficiency.




                                             2

                                   FINDINGS

USEFULNESS TO HOSP~XLS:            A majody of Data Bank rep~        were usejid to
hospilak.

Whether a report from the Data Bank is useful to a hospital depends on several
fidctors. Some factors can be determined objectively, such as whether the report
provides new information or duplicates other reports, whether it is accurate, and
whether the report arrives at the hospital in time to be used in the privileging process.
Other factors are more subjective, such as whether the information is relevant to the
reported practitioner’s competency and professionalism. Measured by both objective
and subjective criteria, the Data Bank appears to be providing valuable information to
hospitals.

  �
       Forty percent of Data Bank reports have provided information       previously
       unknown to hospital staffs.

When it created the Data Bank, Congress perceived that hospitals were not obtaining

complete information about the practitioners to whom they granted privileges. One

measure of the Data Bank’s usefulness, therefore, is the extent to which it adds to

hospitals’ knowledge by providing information hospitals do not obtain elsewhere. So

far, a substantial number of reports--4O percent overall--have given hospitals

information that no other sources had provided to them.


Hospitals find that practitioners often fail to reveal their own histories of malpractice

payments and adverse actions. Forty-seven percent of Data Bank reports gave

hospitals information that the practitioners named in those reports did not provide.3

These practitioners did not necessarily break any rules. Whether complete disclosure

is required of practitioners depends on individual hospitals’ application procedures.


Hospitals also find that they do not always get important information from their own

State licensing boards. When hospitals received reports on adverse actions from the

Data Bank that were originally submitted by licensing boards in the hospitals’ own

States, the Data Bank reports represented the hospitals’ only knowledge of the

adverse actions twenty percent4 of the time. Another 10 percents of the time,

hospitals learned of the board actions from sources other than the Data Bank, but not

from the boards themselves. Whether this communication gap is the fault of boards

(for not providing information to hospitals) or of hospitals (for not requesting

information from boards), we cannot say.


Hospitals have even more trouble learning of other hospitals’ clinical privilege actions.

Half of the Data Bank reports on clinical privilege actions provided information

otherwise unavailable.b





                                             3

Surprisingly, hospitals were more likely to be aware of malpractice payments and
adverse actions occurring in other States than of payments and adverse actions
occurring in their own States. Hospitals were aware of information contained in
85 percent’ of reports from other States, but in only S5 percent of reports from their
own States.8 There is no clear explanation for this, except that because most of the
reports came from sources within the same State, a small number of out-of-state
reports about which hospitals had information drove the difference.9

  �
       The Data Bank has delivered accurate reports to hospitals.

During the planning and early implementation of the Data Bank, some observers
feared that erroneous information about practitioners could be relayed from the Data
Bank to Data Bank queriers.l” But the Data Bank’s safeguards, such as allowing
practitioners to dispute reports against them, seem effective in preventing the release
of incorrect reports. Hospitals had almost no complaints about the reliability of
information in Data Bank reports. No hospital in our sample responded that the Data
Bank report it received was inaccurate.11 Hospitals evaluated, or had a chance to
evaluate, the accuracy of the information by comparing it to information they had
already received or by making inquiries of other sources after they received the
reports. Their judgments, therefore, are good indicators of the accuracy of the
reports.

Furthermore, there is some evidence that reporters to the Data Bank--malpractice
insurers, licensing boards, and so on--are complying fully with reporting requirements.
only one hospital said that the response it received from the Data Bank was
incomplete, i.e., that the Data Bank should have had additional information on the
practitioner in question.12 We cannot judge, however, whether or not underreporting
is a significant problem. Although it seems that the Data Bank has full information on
those practitioners who are reported, there remains the possibility that practitioners      .
who should have been reported to the Data Bank never were.

  �
       The Data Bank’s average response time has been steadily improving. Over an
       18 month period, median response time has dropped from 123 days to 26 days.

Timeliness is an important factor in the usefulness of Data Bank reports. In specifying
the timing of required queries, Federal regulations imply that information from the
Data Bank should be used when hospitals consider practitioners’ applications for
clinical privileges. For Data Bank reports to be used in this manner, they must arrive
at hospitals before the privileging decisions are made. When the Data Bank first
opened, it was not responding efficiently to queries.13 For queries submitted in the
third quarter of 1990, just 44 percent of reports arrived before hospitals made the final
decisions on the practitioners involved.14 The proportion arriving in time rose to 66
percent*5 in the first quarter of 1992.

The Data Bank’s performance is better reflected by response time than by on-time
arrivals, because Data Bank operators have no control over the time allowed by


                                            4
hospitals between submitting a query and making a final decision. If a hospital
submits a query just a day before making a decision, the Data Bank has no chance to
respond in time. The Data Bank has shown great improvement in response time since
its opening. Median response time was 123 days for queries that were submitted in
the third quarter of 1990, but by the first quarter of 1992, median response time had
fallen to 26 days.]b

The Data Bank’s poor response time early in its history was partly due to the problem
of “partial matches.” A partial match occurs when a query and a report match on
some pieces of identifying information, but on too few to confirm that the practitioners
named in the query and in the report are the same person.17 Partial matches require
human review to determine if they are indeed true matches.18 They constituted
about 40 percent of all matches through March 1992, and at least 25 percent of the
reports received by our suxvey respondents. Until Januaxy 1992, the Data Bank
computers could not be programmed to accept the results of human reviews, and all
queries resulting in partial matches were placed on hold. This means some queries
made in 1990 and 1991 did not generate reports in response for over a year. Now
that the needed computer program has been written, partial matches are resolved with
approximately one week’s delay.

  �
       Hospital officials found 58 percent of Data Bank reports to be useful. As the
       Data Bank’s response time has improved, so has the proportion of reports
       rated useful.

Measured by hospital officials’ assessments, a moderate majority (58 percent) of Data
Bank reports received between September 1, 1990, and March 19, 1992, have been
useful. A key determinant of a report’s usefulness is its timeliness. As response times
have fallen since 1990, usefulness ratings have risen. None of the reports that
matched queries made in the third quarter of 1990 were judged useful, compared with
74 percentlg of reports that matched queries made in the first quarter of 1992 (figure
1).

  �
       The most frequently cited reason for Data Bank reports’ usefulness was that
       they confirmed information about practitioners that hospital officials already
       knew. Other reasons cited include the reports’ help in making judgments about
       practitioners’ competency and their provision of information not already known.

of the reports hospital officials considered useful, 60 percentw were deemed useful
at least in part because they confirmed other available information. The next most
frequently cited reasons were that they helped hospitals to judge practitioners’
competency (37 percent2* of useful reports) and that they provided information
unavailable elsewhere (30 percent22 of useful reports).=

Not all hospital officials valued reports that confirmed available information. Of the
reports considered not useful, hospital officials considered 52 percentx not useful
precisely because they were duplicative.


                                           5
                                                     FIGURE 1

                As Response Time Decreased, Usefulness of
           130
              1        Data Bank Reports Increased     r 100
                                                                                               -$0
           llo -
           1oo-                                                                                -80
            90-                                                                                -70
            80-
                                                                                               -60
            70-
                                                                                               -50
            60-

            50-    -                                                                           -40

            40-
                                                                                               -90
            30-
                                                                                               -20
            20-

            lo-                                                                                -10

             0       Lu          1          !             1         !          1         I   -o
                   1990:Q3    1wo:m      1991:Ql       1991:a2   1991:Q3    1991:Q4   1992Q1
                     n-4        ~.7        n-l 9         n.=         n-s)     n-2s     n-l 8
                                                  Quarter of Query
 SOURCE:   OIG Survey of Hospitals, Spring 1992


   �
       Neither the source of reports nor, for malpractice reports, the payment amount
       affected the proportion of Data Bank reports that hospital officials rated useful.

There were no significant differences in the percentage of reports judged useful
because of the type of incident involved (payment vs. adverse action), amount of
malpractice payment, location of report (in-State vs. out-of-State), or type of adverse
action (table 1). These results are contrary to expectations. We anticipated that
certain types of information held in the Data Bank would prove more useful to
hospitals than others. We thought that reports of adverse actions would be more
useful than reports of malpractice payments, for example, and that reports of large
malpractice payments would be more useful than reports of small ones.

Some groups, notably the American Medical Association and the Physicians Insurance
Association of America, have argued that small malpractice payments are not
indicative of incompetence and should not be reported to the Data Bank. The equal
amounts of large and small malpractice payments rated useful confirms our conclusion
that small payments should continue to be reported.”   (For further discussion of
malpractice payment reporting, see our April 1992 report, “National Practitioner Data
Bank: Malpractice Reporting Requirements.”)




                                                           6
                                         TABLE 1

               USEFULNESS TO HOSPITALS OF DIFFERENT TYPES
                         OF DATA BANK REPOR~


      Type of report                               Reports considered useful
      Incident involved
            Malpractice    payment                       59%

  I         Adverse action                     I         57%                           I
      Amount of malpractice payment
            Less than $30,000                            57%

  I         $30,000 or more                    I         61%                           I
  I Typ of    adverse   action                 I                                       I
  I         Board licensure action             I         53%                           I
            Hospital privileges action                   64%
      Location of report
            Out-of-State                                 81%

  I         In-State                           I         56%                           I
  Note: None of these differences is significant at the 95 percent confidence level.

  SOURCE:      OIG Survey of Hospitals, Spring 1992



IMPACT ON DECISIONS: Data Bank rep~ rare~ lid hmpitdk to make privikging
&cimims they would not huve made without the reprts, even when the repmls provided
information that hospitak did not aliea@ know.
                                            z
The impact that receiving information from the Data Bank has on hospitals can be
characterized in several ways. Impact may include giving hospital administrators
confidence that they have complete information about their medical staffs. It may
include adding information to practitioners’ files that could be used in the future
should questions arise. But Data Bank reports can have their most direct impact by
affecting the outcome of decisions on practitioners who have just applied for new or
continued hospital privileges. For this reason, we asked hospitals the following
question: Would your decision regarding the practitioner have been different if you
had not received the Data Bank report? Because our measurement of impact focused
on the privileges decisions, we did not include in this analysis any situations when the
decisions were still pending. Sixteen percent of Data Bank reports involved
practitioners for whom the hospitals’ privileging decisions were still pending at the
time of our survey.

  �
       According to hospital officials, if hospitals had not received the Data Bank
       reports, their privileging decisions would have been different one percent of the
       time.

Some hospitals that made adverse decisions on privileges would have made them even
in the absence of a report from the Data Bank. Eight percentx of Data Bank
reports were on practitioners whose privileges were later revoked, denied, or restricted
by the hospital requesting the report. A small proportion of these reports (one
percent of all reports) provided information that caused hospitals to deny, revoke, or
restrict privileges that they otherwise would have granted. In these cases, the
information provided by the Data Bank was a key factor
                                                     ,     in the decision (see box, next
page).

  �
       Eighty percent of Data Bank reports had little chance to have an impact on
       hospitals’ privileging decisions. Each of these reports either arrived after the
       decision was made or duplicated available information.

There were a variety of reasons why it was unlikely for Data Bank reports to have an
impact on privileging decisions. When hospitals received reports after their privileging
decisions had been made, the reports clearly could not affect the initial granting of
privileges. Theoretically, reports received after a decision to grant privileges could
have caused hospitals to decide to revoke privileges, but according to a credentialing
expert at the Joint Commission for Accreditation of Hospitals, revoking privileges
once they have been granted is an extremely difficult process. When hospitals were
already aware from other sources of the information in the Data Bank reports, the
reports themselves were unlikely to affect privileging decisions. Hospital officials who
received confirming information may have felt more confident about decisions they
were planning to make, but they probably would not alter their decisions based on
duplicative information.

Eighty percent of the reports had little chance of having an impact on decisions, for
the following reasons:

       Eight percent27 of reports named practitioners who did not go through the
       privilege decision process. These practitioners either withdrew their
       applications (6 percent) or requested only temporary privileges (2 percen~).

       Th.irty-ei@t percent of reports were not received prior to hospitals making
       decisions. For eighteen percent, the hospitals did not query the Data Bank
       until after the decisions and for twenty percent, they queried in advance of the
       decisions,




                                            8
            WHEN THE DATA BANK MAKES A DIFFERENCE


The information in National Practitioner Data Bank reports has caused some
hospitals to revoke practitioners’ privileges. The following three cases were
included in our sample:

E     In January 1991, a physician was put on five year probation by a State
      medical licensing board. The board reported this information to the Data
      Bank citing the physician’s incompetence, malpractice, and/or negligence.
      Eleven months later he applied for hospital credentials within the same
      State and did not disclose this information. The hospital made a query to
      the Data Bank 12 days after receipt of the application and received a
      response 16 days later. The response included notice of the probation
      along with 5 other reports. The hospital was not aware of the probation
      from any other source. Six days later his application was denied.

�     In August 1991, a physician who had applied for privileges in December
      1989 was granted them after an extensive delay due to an incomplete
      application. Also in August, the hospital learned from the Data Bank that
      the physician had resigned from another hospital six months earlier while
      he was under investigation for incompetence or misconduct. The Data
      Bank also reported two other incidents. The hospital was not aware of
      the resignation from any other source. The next month, the hospital
      revoked the physician’s privileges.

F     In October 1990, a physician applied for privileges to a hospital which
      queried the Data Bank in November 1990. The hospital granted
      tempora~ privileges, with the final decision pending review of the Data
      Bank information. In December 1990, the physician resigned privileges at
      another hospital where he was under investigation for incompetence and
      this hospital reported the information to the Data Bank. The Data Bank
      response detailing this action came to the querying hospital in February
      1991 and provided information the hospital had not received from any
      other source. At this time the hospital acted to suspend the physician’s
      privileges indefinitely. Before the suspension could be resolved, the
      physician resigned.


SOURCE:    C)IG Survey of Hospitals, Spring 1992




                                        9
          Thirty-four percent of reports, though received by hospitals before credentialing
          decisions were made, provided only information already known to the hospitals.

    The remaining 20 percent of reports were received prior to the decision and provided
    information that was not available elsewhere. These reports had the potential for
    having an impact on hospital privileging decisions. One percent x of the reports did
    cause hospitals to alter decisions (see above), leaving nineteen percent which had the
    potential to have an impact on decisions but did not.

      �
           Nineteen percent of Data Bank reports arrived before hospitals’ decisions were
           finalized and contained information that neither the practitioner involved nor
9          any other sources had provided, but did not cause the hospitals to alter their
           privileging decisions.

    Some hospitals explain that the Data Bank reports, even when they are received prior
    to the decision and do not duplicate information from other sources, are not useful.
    About half of such reports were considered not useful, most often because they could
    not help judge competency or professionalism. Hospitals found the other half useful,
    but did not alter decisions based on the information. In all of these cases, regardless
    of whether they found the reports useful, hospitals granted full privileges to the
    practitioners named in the reports.29

    Although Data Bank reports are not necessarily in themselves firm evidence of
    incompetence or unprofessionalism, practitioners who do not disclose information
    contained in the reports may be misrepresenting their applications for privileges.w
    Practitioners are expected to inform hospitals of the malpractice payments and
    adverse actions that are reported to the Data Bank.31

    Many reports that provided new information but did not affect privileging decisions
    involved small malpractice payments ($30,000 or less) or minor adverse actions (for
    example, a small fine for having submitted a false medical claim). It appears that
    some hospital boards do not believe that either these incidents or the practitioners’
    failures to disclose them are serious enough to warrant adverse privilege decisions.

    Other reports detail serious actions that alone might call into question the
    practitioners’ ability or behavior and, because they were not disclosed by the
    practitioners, could also raise concerns about the practitioners’ trustworthiness.   For
    example, one doctor resigned his privileges at a hospital just before a scheduled
    disciplinary hearing at which he faced a three-month suspension. Nine months later,
    he applied to another hospital and failed to report his earlier resignation. In another
    case, a dentist had been barred by a State licensing board from practicing on young
    children except within a hospital setting. He failed to report this action in his
    application. In both of these cases, hospital officials said that the reports of these
    incidents they got from the Data Bank were useful because they provided information
    unavailable elsewhere. In the first case, a hospital official said the Data Bank
    information helped the hospital judge the doctor’s professionalism and that it led to an


                                               10
investigation of the circumstances surrounding the previous resignation.   Nevertheless,
both practitioners were granted privileges as requested.




                                           11
                     RECOMMENDATIONS

Our findings indicate that the usefulness and impact of the information in the Data
Bank are strongly affected by the timeliness of the reports. In fact, this is the only
area the Data Bank administrators can affect that appears to need improvement and
has an impact on the usefulness of the Data Bank reports.

Our recommendations, therefore, identify steps that PHS and hospitals need to take to
improve the timeliness of Data Bank reports, since PHS shares the responsibility for
timeliness with the hospitals that query the Data Bank. Hospitals also have
responsibility for much of the impact of the Data Bank. Reports from the Data Bank,
particularly those that provide information not available from other sources, should be
important considerations in hospitals’ privileging decisions.

?he PHS shod seek to reduce fidm         the time between query and rapons~ and should
makz thh a high pti~      in its next con~act for o~ration of the Data Bank l%e PHS
should publish recently established Pefoimance indicaton rekiting to ruponse time in ti
annual reprt on the Data Bank

While we are encouraged by the improvements PHS has made in response time, this
progress must continue. The PHS and its contractor have contractual standards for
turnaround time (5 working days for single name queries and 20 working days for
multi le name queries). The contractor is currently meeting them most of the
time. f 2 The contractor processes queries by reentering information submitted on
paper into their computerized system. While current standards may represent the
limits of timeliness in a paper-based system, the PHS could likely improve overall
response time if the querying and reporting system were electronic. The PHS has
recently completed testing a new system for handling electronic queries and began
implementing diskette and telephone queries in September 1992. We welcome these
innovations and suggest that the PHS consider testing on-line queries and responses.
The PHS could also focus on ways to reduce the number of “partial matches,” which,
unlike most matches, require human intervention to complete.

The PHS is in the process of determining priorities and strategies for procuring its
second contract for administration of the Data Bank (the current contract expires on
December 31, 1993). The PHS should assure that timeliness is given a primary focus
in the next contract.

The PHS recently established performance indicators concerning response time. The
PHS tracks the average response time on a weekly basis. In order to assure public
accountability, the PHS should include these statistics in the Data Bank annual report
and report them at the Data Bank Executive Committee meetings.




                                           12

h? Joint Comrni%sion for Accreditatwn of Healthcare Organizations (JCAHO) shouki
eistablkh guideliiws on how qu”ckly hospitak shotdii query the Data Bank a@r receiving
applihatwns for privileges.

In order for the Data Bank reports to be useful, they have to be available to hospitals
at key decision points. Hospitals that make queries to the Data Bank after privileging
decisions limit themselves to retrospective disciplinary actions. Sixteen percent of
reports were received after the privi]e ing decisions were made because the hospitals
did not query until after the decisions. ! 3

The JCAHO is responsible for reviewing hospitals’ policies and procedures and thus
quali&ing them for Federal reimbursement.      The JCAHO in its current hospital
accreditation manual does not mention the National Practitioner Data Bank, but it
does in a supplemental guide which clarifies the intent of the manual. According to
this guide, hospitals are expected to request information from the Data Bank for every
new applicant and are expected to query at least once every two years for currently
credentialed staff (in compliance with Federal law). The JCAHO encourages hospitals
to consider this information when making decisions on applications. The JCAHO
manual and supplement do not speci~ how quickly this inquiry should be made after
receipt of the application. Therefore, hospitals may be fully complying with the intent
of JCAHO, yet may not have any chance of receiving information before making their
decisions. The JCAHO should establish guidelines to make it likely that hospitals
receive information prior to making a decision.




                                           13
COMMENTS                     ON THE             DRAFT             REPORT
From within the Department of Health and Human Semites, we received comments
on our draft report from the Public Health Service (PHS), the Assistant Secretary for
Management and Budget (ASMB), and the Assistant Secretary for Planning and
Evaluation (ASPE). We also received comments from the Joint Commission on
Accreditation of Healthcare Organizations (JCAHO), the American Hospital
Association (AHA), and the American Medical Association (AMA). In appendix C,
we reproduce these comments in full and provide our responses to them.

The PHS concurred with our recommendations      and has begun to implement   th~m.

The ASMB concurred with our recommendations and suggested three additional
recommendations.   We agree with the intent of ASMB’S suggestions, and direct PHS’S
attention to them. Nevertheless, as we explain in appendix C, we chose not to
incorporate ASMB’S recommendations into our report.

The ASPE raised concerns about whether our report successfully answers the question
of how useful Data Bank information is to hospitals. At ASPE’S suggestion, we have
provided more precise statistical information than was contained in the draft report.
For reasons provided in appendix C, however, we disagree with some of ASPE’S
interpretations of our results.

The JCAHO, in response to our recommendation, will consider adding guidelines on
the timeliness of queries to the Data Bank in its next accreditation survey.

The ~        though pleased that the Data Bank is providing complete and accurate
information, perceives the Data Bank as merely a “back-up tool” in hospital
credentialing and questions whether the Data Bank’s usefulness justifies its costs.
We believe that the high percentage of reports supplying new information
demonstrates that the Data Bank is more than a “back-up tool.” The AI-IA also
questions the wisdom of developing new JCAHO guidelines for querying when many
hospitals have already established such guidelines on their own. We believe that
action by JCAHO would simplify rather than complicate hospital policy establishment.

The AMA criticized our sampling methodology and questioned our interpretation of
some of our survey results. We explain in appendix C that our sampling methodology
was appropriate given the purpose of our study, and we offer further explanation of
our interpretations.
                            APPENDIX                  A
                                  METHoDomGY

We collected the data presented in this report through a mail survey of hospitals
conducted from April to June 1992. our survey sample was drawn from the universe
of all Data Bank matches involving hospitals between September 1, 1990, and March
19, 1992. A match is a pairing of a report and a query to the Data Bank that name
the same practitioner.  We requested and received from Paramax Systems Corporation
a computer file containing records of all Data Bank queries and reports that identified
the same practitioner.  We restructured and analyzed the data using Version 6.04 of
the SAS System for Personal Computers.

We drew a stratified random sample of 200 matches from the universe of 19,122
matches.w The sample consisted of 100 matches involving malpractice payment
reports and 100 matches involving adverse action reports.

In April 1992, we mailed a questionnaire about each report to the hospital involved.
There were 195 hospitals that received questionnaires; five hospitals were each sent
questionnaires on two different practitioners. We followed this with a second mailing
to nonrespondents, then follow-up telephone calls to remaining nonrespondents.    All
responses used in the analysis were received by June 12. Appendix B shows the
questionnaire and simple frequencies.

Questionnaires were addressed to the person whose name appeared on the original
query to the Data Bank. Most respondents held the position of medical staff
coordinator or the equivalent. A few respondents were the chief executive officers of
their hospitals.

our response rate was 71 percent. Responses were evenly split by type of Data Bank
report (72 adverse action reports and 70 malpractice payment reports).    The reports
on which we received responses appear to represent fairly the reports in the universe
of matches. For example, of the 70 responses about malpractice payment reports, 53
percent were for payments of $50,000 or less; overall, 47 percent of the matches were
for payments of $50,000 or less.

Fifty-seven percent of the respondents queried the Data Bank because of mandatory
two-year review requirements, 42 percent queried on initial privileging or employment
applications, and one queried for professional review purposes. Of the 72 responses
based on adverse actions, 51 percent were state licensing board actions, 47 percent
were hospital clinical privileges actions and 1 was a professional society membership
action. The most commonly specified reason for adverse action was
incompetence/malpractice/negligence      (14 percent); the most commonly cited type of
act or omission cited in the malpractice actions was surgery-related (36 percent).
Ninety-seven percent of the respondents queried about physicians (the other



                                         A-1
practitioners   were dentists and podiatrists).     The specialties of the physicians are listed
in table A.

Analysis of nonrespondents showed no significant differences between respondents and
nonrespondents according to bed size, teaching status, hospital ownership, or services
offered. (We obtained this information on all hospitals in our sample from the
American Hospital Association’s Guide to the Health Care Field, 1992 edition.)

There were 141 hospitals represented in the responses. Of the five hospitals that had
been sent two questionnaires, one returned both and four did not respond at all.
Respondent hospitals are
                       . profiled in table B.

Because adverse action matches represented 51 percent of the survey responses but
only 11.5 percent of the universe, we assigned weights to each observation that allow
us to extrapolate to”the universe of matches. These weights equaled 1.80 for
malpractice payment matches and 0.23 for adverse action matches. All statistics
presented in this report were computed using these weights, except for those statistics
that pertain only to either the subsample of malpractice payment matches or to the
subsample of adverse action matches.

Without the weights, the analyses would have been overly representative of adverse
actions. In some cases, this would not have made much of a difference. For example,
58.4 percent of reports were rated useful when weighting was done, while 57.7 percent
were rated useful without weighting. The weighting was more important in other
cases. Using weighted figures, 47 percent of reports yielded information that the
practitioners named in those reports did not provide; using unweighed figures,
52 percent of reports yielded this type of information. Table C compares some of the
weighted and unweighed figures.

Unless otherwise noted, suxvey results presented as percentages have a margin of
error of approximately 7 percent at a 90 percent confidence level. For example, we
are 90 percent confident that the true percentage of Data Bank results judged useful
is between 51 and 65 percent (58 percent plus or minus 7 percent).




                                                  A-2

                              TABLE A

                       TYPES OF PRACTITIONERS


Type of practitioner                       Number of     Percentage of
                                             matches          matches
TOTAL                                            142             100.0
PHYSICIANS                                       137              96.5
      General Surgery
                          23               16.2
      Family Medicine
                          21               14.8
      Internal Medicine
                        12               8.5
      Orthopedic Surgery
                       11               7.8
      Emergency Medicine
                       9                6.3
      Pediatrics
                               7                4.9
      Neurological Surgery
                     7                4.9
      Obstetrics and Gynecology
                7                4.9
      Urology
                                  5                3.5
      General Medicine
                         4                2.8
      Anesthesiology
                           4                2.8
      Ophthalmology
                            3                2.1
      Radiology
                                3                2.1
      Other or Missing
                         3                2.1
      Cardiac Surgery
                          2                1.4
      Cardiology
                               2                1.4
      Gynecology (Osteopathic)
                 2                1.4
      Gastroenterology
                         2                1.4
      Eye, Ear, Nose, and Throat
               2                1.4
      Plastic Surgery
                          2                1.4
      Psychiatry
                               2                1.4
      Thoracic Surgery
                         2                1.4
      Oncology
                                 1                0.7
      Allergy
                                  1                0.7
DENTISTS and ORAL                                    4             2.8
SURGEONS
PODIATRISTS                                          1             0.7

  SOURCE:     OIG Suxvey of Hospitals, Spring 1992




                                    A-3

                                    TABLE B

                 PROFILE OF RESPONDENT HOSPITALS


                              TEACHING       STATUS
Status                      Number of Hospitals       Percent of All Hospitals

Teaching                                       43                          30.3
Non-Teaching                                   98                          69.0

                            HOSPITAL    OWNERSHIP
Control                     Number of Hospitals       Percent of All Hospitals
Government-                                    23                          16.2
owned
Nongovernment                                  96                          67.6
Not-for-profit
Investor-owned                                 22                          15.5
Partnership                                       1                         0.7
Corporation                                    21                          14.8

                         BED SIZE - TOTAL FACILITY
Bed Size                    Number of Hospitals       Percent of All Hospitals

Under 100 Beds                                 25                          17.6
100-199       Beds                             33                          23.2
200-299       Beds                             29                          20.4
300-399       Beds                             22                          15.5
400-499       Beds                                9                         6.3
500 or More Beds                               23                          16.2

     SOURCE:         OIG Suxvey of Hospitals, Spring 1992




                                       A-4
.




                                      TABLE C

                   WEIGHTED VS. UNWEIGHED               RESUL7S


    Analysis                                             Weighted   Unweighed
    How many reports were rated useful?                     58.4%       57.7%
    How many reports were actively reviewed by at           74.0%       73.2%
    least one hospital official?
    How many reports that were received on time             86.5%       88. 1%
    were actively reviewed by at least one hospital
    official?
    Of reports found useful, how many reports               59.6%       54.9%
    were judged so at least in part because they
    confirmed other available information?
    Of reports found useful, how many reports               37.4%       31.7%
    were judged so at least in part because they
    were helpful in judging competency?
    How many reports gave hospitals information             39.7%       38.7%
    that was otherwise unavailable?
    How many reports gave hospitals information             47.1%       52.1%
    that the practitioner involved in the report did
    not provide?
    How many reports had a direct impact on a                0.5%        2.1%
    hospital’s credentialing decision?
    How many reports were on practitioners whose             8.1%        11.3%
    privileges were revoked, denied, or restricted by
    the hospital?
    How many reports had little chance of making            80.3%       82.8%
    a direct impact on a privileging decision?

          Source: OIG Survey of Hospitals, Spring 1992




                                        A-5
              APPENDIX           B
SUMMARY OF HOSPIT~’   RESPONS~   TO OIG MAIL SURVEY




                      B-1
      U.S. DEPARTMENT OF HEALTH AND HUMAN SERVICES

                         USE AND UTILITY OF THE
                    NATIONAL PRACTITIONER DATA BANK

NOTE: The first  29 questions in this surveyconcern the case of practitioner A whoseidentity is givenon
the last page of this questionnaire. Unless othenvise specified, please confine your responses to your
knowledgeof the particular practitioner and event referred to on that page.

                          BASIC FACTS AND CHRONOLOGY

 1       What is Practitioner    A’s specialty? 27 diflerent specialties repr~ented             1
 2       On what date did Practitioner A sign an application             None: 5                2
         requesting privileges (either new or continued) at              Ekdiest:          ‘
         your hospital?                                                  10/18/89
                                                                         Latest: 4/27/92
                                                                         No answez 3
 3       on what date did you request information about                  Eadiest: 7/11/W        s
         Practitioner A from the National Practitioner Data              Latest: 2/29/92
         Bank?                                                           No answm 6
 4       on what date did you receive a response from the                Nwer receivd 2         A
         Data Bank? (Write “NR” if you have not yet received             Eadkst 11/9/90
         a response.)                                                    Latest: 512/92
                                                                         No am=       9
 5      On what date did the hospital board make its initial             No deckion             5
        decision regarding Practitioner A’s privileges?                  necessay: 13
        (Write “PENDING” if boardh initial decision has not              Still pending: 20
        yet been made, then skip to 14.)                                 Earliest:5/21/90
                                                                         Lutat: 4/23/92
                                                                         No anmwz 2
 6       Was the hospital board’s initial decision a                     Ya: 13                 6
         temporary one pending further information?                      No: 98
                                                                         Not app.: I
                                                                         No answtm 30
 7      (Skip if you answered ATOto 6)                                   still perldhg: 1       7
        on what date did the hospital make its final                     Eadikst: 1/2/91
        decision regarding Practitioner A’s privileges?                  Lutes: 2/6/92
        (Write “PENDING” Y boardk final decision has not                 No answec 129
        yet been made, then answer 8 through 13 with respect
        to the boardh initial decision.)




                                                B-2
8        Were privileges granted to Practitioner            A as                Ya: %           8
         requested by Practitioner A?                                           No: 15
                                                                                Not app.: I
                                                                                other I
                                                                                No amwer 29
9
         (skip    ij’you answered
                               YES to 8)                                        Ya: 7           9
         Were Practitioner A’s privileges denied (for initial                   No: 8
         application) or revoked (for renewal application)?                     Not app.: 1
                                                                                No ammz 126
10       (Skip if you answered YES to 8 or 9)                                   Ya: 8           10
                                                                                                    0

         Were Practitioner A’s privileges restricted or                         No: 2
         amended in any way?                                                    Not app.: 1
                                                                                No answer 131
11       (Skip if you answered YES to 8 or 9 or NO to 10)                                       11
         In what way were Practitioner A’s privileges restricted or amended?
     a             All privileges suspended (IF YES, FOR HOW                    Ya: 1                   a
                  LONG?                                      )
     b                         May not perform certain procedures               Ya: 5                   b
     c     May perform certain procedures              only with another        Ya.= O                  c
                                                             practitioner
     d                                  May co-admit patients only              Ya.= O                  d
     e             Mandatory     consultation   for certain conditions          Ya.= O                  e
     f             Mandatory    review before patient admission or              Y=: O                   f
                                                         discharge
     g           Proctor assigned to review Practitioner        A’s work        Ya.= 1                  g
     h       Other (IF YES, SPECIFY:                                            Ya: 4                   h
                                                                            )
12       (Skip if you answered YES to 8 or 9 or NO to 10)                       Yw: 2           12
         Were these restrictions on Practitioner A’s                            No: 5
         privileges in place prior to the application?                          oh    I
                                                                                No answer 134
                                                   .




                                                  B-3
13        (Skip i’fyou answered YES108 or 9 or NO to IO)               (Check one)   13
          Which of the following best describes the
          restrictions applied to Practitioner A’s privileges?
      a       Routine (e.g., procedure(s) not approved at this              5             a
             hospital, restriction applied to all new hires, etc.)
      b     Specific to Practitioner A (e.g., applied because of            3             b
                 particular event(s) in Practitioner A’s history)
14	       Were any other actions taken with regard to                Ya: 18          14
          Practitioner A’s employment, privileges, or                No: 110
          credentials (e.g., education requirements, drug            Not app.: 1
          testing, etc.)?                                            Otha 2
          (IF YES, EXPLAIN:                                          No answer 11

                                                                 )


               AVAIIABIWIY AND ACCURACY OF INFORMATION

15	       Were you aware, from sources other than the Data           Y@: 84          15
          Bank, of the adverse action or malpractice payment         No: 55
          mentioned on the last page of this form?                   other 2
                                                                     No anmwm 1




                                             B-4

16	       (Sk@ if you answered NO to 15j
                                            16
          From which of the following sources were you aware of the adverse

          action or malpractice payment?

      a                            Practitioner    A (self-report)   Ya:67                a
                                                                     No: 17

                                                                     other I

                                                                     No answm 57

      b                         Licensing board in your state        Ya:31                b
                                                                     No: 54

                                                                     No anmwm 57

      c                      Licensing board in another state        Ya:3                 c
                                                                     No: 82

                                                                     No answer 57

  d                          Malpractice    insurer in your state    Y=: 7                d
                                                                     No: 77

                                                                     other I

                                                                     No answer 57

                         Malpractice    insurer in another state     No:85
               e
                                                                     No answez 57

                                  Other hospital in your state       Y=: 16               f
                                                                     No: 69

                                                                     No answm 57

                                       Hospital in another state	    Y=: 3
               g
                                                                     No: 82

                                                                     No armwm 57

                            Professional society in your state       Y6: 3                h
                                                                     No: 82

                                                                     No answm 57

                         Professional society in another state       No: 85               i
                                                                     No answer 57

                                   Other source in your state        Y=: 12
              j
                                         (IF YES, SPECIFY:           No: 73

                                                             )       No answer 57


  k                            Other source in another state         Y~: 1                k
                                        (IF YES, SPECIFY:            No: w
                                                            )        No ansmm 57





                                            B-5

17       (s@ VYOU answered NO to IS)                                   Ya: 3                 17
         Was the information you received in the Data Bank             No: 82
         response inconsistent in any way with the                     other 1
         information reported by any of the above sources?             No answm 56
         (IF YES, WHICH SOURCES?
         Ractitwnm I
         Ihsurer in-State: 1
         No answer: l)
18       Did you make additional      inquiries (for example, to       Y=: 32                18
         a malpractice insurer or    another hospital) to              No: 108
         confirm the accuracy of    the Data Bank response or          other 1
         to obtain more detailed    information on its content?        No answer 1
19       (Wp ifyou answered NO to 18)                                  Ya: 28                19
         Did your additional inquiries show the Data Bank              No: I
         response to be accurate?                                      other 3
         (IF NO, EXPLAIN:                                              No answz      110

                                                      )
NOTE: Questions 20-23 refer to the entire Data Bank response, not just to the report attached to
this questionnaire. Therefore, if you received more than one report from the Data Bank on
Practitioner ~ please consider them all in answering Questions 20-23.

20       Were you aware of any disciplinary actions or                 Ya: 9                 20
         malpractice payments involving Practitioner A that            No: 131
         were ~ contained in the response from the Data                Not app.: 1
         Bank?                                                         No answer I
21       (Wp ifyou answered NO to 20)                                                        21
         How many disciplinary actions and malpractice payments were you
         aware of that were ~ contained in the response from the Data
         Bank?
     a                           Number of disciplinary actions        0: S                        a
                                                                       1:3
     b                       Number of malpractice        payments     O: 2                        b
                                                                       1:4
                                                                       2:1
                                                                       5:2




                                              B-6
22       (sk~ fyou answered NO to 20)                                             22
         How many of these disciplinary actions and malpractice      payments
         occurred after September 1, 1990?
     a                         Number of disciplinary actions       0:7                a
     b                      Number of malpractice       payments    O: 6               b
                                                                    4:1
23       (Skb ~you answered NO to 20)                                             23
         Which of the following sources provided information about disciplinary
         actions or malpractice payments that were @ contained. in the
         response from the Data Bank?
     a                            Practitioner    A (self-report)   Y=.= 7
     b                          Licensing board in your state       Y~: O
     c                       Licensing board in another state       Ya: O
     d                      Malpractice     insurer in your state   Ya: O
     e                   Malpractice    insurer in another state    Y=: 1
     f                           Other hospital in your state       Ya: O
     g                                 Hospital in another state    Ya: 1
     h                      Professional society in your state      Ya: O
     i                   Professional society in another state      Ya: O
     j                             Other source in your state       Ya: 2
                                         (IF YES, SPECIFY:

     k                         Other source in another state” Ya: 1
                                        (IF YES, SPECIFY:




                                            B-7
                       CONSIDERATION OF INFORMATION

24        Based on the notes in Practitioner A’s file and your personal             24
          knowledge of Practitioner A’s application, which of the following
          people or groups had access to and used the response from the Data
          Bank in making a decision regarding Practitioner A’s implication?
     a                                         Department    chair   Y=: 80              a
                                                                     No: 46
                                                                     Not app.: 8
                                                                     other 2
                                                                     No answer 6
     b                                     Chief of medical staff    Ya: 71              b
                                                                     No: 58
                                                                     Not app.: 5
                                                                     Othec2
                                                                     No amwen 6
     c    Hospital administration     (CEO, Vice President, etc.)    Ya: 67              c
                                                                     No: 62
                                                                     Not app.: 5
                                                                     other 2
                                                                     No amver 6
     d                                    Credentials   committee    Ya: 80              d
                                                                     No: 45
                                                                     Not app.: 9
                                                                     other 2
                                                                     No answm 6
.    e                      Medical staff executive committee        Ya: 66              e
                                                                     No: 62
                                                                     Not app.: 6
                                                                     other 2
                                                                     No anmw 6
     f          .
                                    Hospital board subcommittee      Ya: 28              f
                                                                     No: 90
                                                                     Not app.: 15
                                                                     other 2
                                                                     No answez 7
     t!                                       Full hospital board    Ya: 59              g
                                                                     No: 69
                                                                     Not app.: 5
                                                                     other 2
                                                                     No answer 7


                                             B-8
                                UTILIW OF INFORMATION

25       Including the report on the last page, how many                                     25
         Data Bank reports on Practitioner A did you                     Mean= 1.53
         receive in total from this request?                             S.D.: 1.02

26       (Skip ifyou answered “1”to 25)                                  Ya: 24              26
         Overall, was the information contained
                                           .     in the                  No: 14
         complete Data Bank response (i.e., all reports                  other 1
         combined) useful to you?                                        No answer 103
                                                     IF YES, WHY?          (Check all that
                                                                               appty)
     a                    Information   was unavailable elsewhere                 5               a
     b         Information     confirmed other reports that were                  16              b
                                             available elsewhere
     c           Information     helped us to judge practitioner’s                10              c
                                                     competency
     d           Information     helped us to judge practitioner’s                10              c1
                                                  professionalism
     ‘   Other (EXPLAIN:                                             )            2               e

                                              IF NO, WHY NOT?              (Check alI that
                                                                               apply)
     f                       Information   was available elsewhere                10              f
     g                                  Information was inaccurate                o               i?
     h     Information    did not help us to judge practitioner’s                 7               h
                                 competency or professionalism
     i      Information    was not provided in a timely manner                    7               i
     J Other (EXPLAIN:                                               )            3               j




                                               B-9
27	
               (Sk(p ~you answered       “1”to 25)                                   YG: 2                   27
               Would y(mr decision      regarding Practitioner A have
                                                                                     No: 35
               been different if you    had @ received the reports
                                                                                     Otha 3
               from the Data Bank?       (IF YES, HOW?)
                                                                                     No answer 102

                                                                                     (~ Es,    check one.)
          a                  Would have granted requested         privileges                      1
          b            Would not have granted requested           privileges                      o               I
          c                            Would have restricted privileges                        o
      d                           Would not have restricted privileges                         o                  (
      e       Other	 [EXPLAIN:                                                   )
                     \
                                                                                 )             1T                 1


28	           overall, was the information contained in the Data
              —_                                                                     Y=: 82
              Bank report on the last page useful to you?
                                                                                     No: 54
                                                                                     Othez4

                                                                                     No answer 2

                                                           IF YES, WHY?                (Check al! that
                                                                                           apply)
      a                       Information     was unavailable elsewhere                       28
      b             Information      confirmed other reports that were
                                                                                              45
                                                    available elsewhere
      c
                       Information    helped us to judge practitioner’s                       26
                                                               competency
  d                    Information    helped us to judge practitioner’s                       17
                                                           professionalism
  e           Other (EXPLAIN:
                                                                             )                8
                                                  IF NO, WHY NOT?                     (Check a!! that
                                                                                          apply)
      f                         Information    was available elsewhere                        34
  g                                         Information    was inaccurate                     1
  h            Information    did not help us to judge practitioner’s
                                                                                              26
                                     competency or professionalism
  i             Information    was not provided in a timely manner
                                                                                              26
  J Other (EXPLAIN:
                                                                             )                12




                                                   B-10

n
    ’29
              Would your decision regarding Practitioner A’s               Ya: 3                 29
              privileges have been different if you had @                  No: 120
              received the report on the last page from the Data           Not app.: 2
              Bank? (IF YES, HOW?)                                         other 11
                                                                           No amwer 6

                                                                           (~ YES, check one.)
          a               Would have granted requested    privileges               2                      a
          b           Would not have granted requested    privileges                o                     b
          c                       “Would have restricted privileges                 o                     c
          d                   Would not have restricted privileges                  o                 d
          ‘   Other (EXPLAIN:                                                       1                     e
                                                                       )

    NOTE: The remaining questions do not concern the specific case of Practitioner                    ~
    but rather your general experience with and attitudes about the Data Bank.

                            GENERAL QUESTIONS ON THE
                          NATIONAL PRACTITIONER DATA BANK

    30        How, if at all, have the other parts of your credentialing procedures              30
              been affected by the availability of the Data Bank?
              fiirty-jour said the process has been slbwed down; 20 of these specifkaUy
              attdwted the problkm to &kys in Data Bank rapons~.         Ten mentioned
              the additional cost of qu?m.




                                               B-n
 31       Please rate the following four types ofinformation maintained in the       31
          Data Bank in terms of their usefulness to you--in practice or in
          theory--in the practitioner credentialing process. (Let 1 = extremely
          useful and 4 = not at all useful.)
      a      Hospital disciplinary actions/privilege    restrictions   RATING:            a
                                                                       Meam I. 79
                                                                       S.D.: 1.08
      b                                 Licensing board actions        RATING:            b
                                                                       Mearu 1.85
                                                                       S.D.: 1.08
      c                                   Malpractice    payments      RATING:            c
                                                                       M-      221
                                                                       S.D.: 1.10
      d                Professional society disciplinary actions       RATING:            d
                                                                       Mea= 250
                                                                       S.D.: 1.18
 32       What kind of information @ currently maintained by the Data Bank           32
          would be useful to you?
          No specifii type of tifonnatibn was mentioned by more than 6
          respondents
 33       Please list any additional comments and suggestions you have about         33
          the operation of the National Practitioner Data Bank.
          The most common sugedoq made by 20 respondents, was to impmve
          the timeliitem of Data Bank respmwx Other areas h which
          irq.provement k desiki iWIude Data Bank forms, the help ~    and
          billing procedures. Eizch was mentiond by II respou.




This is the end of the survey. Thank you for taking the time to complete it.




                                            B-12
                            APPENDIX                  C
            DETAILED COMMENTS ON THE DRAFT REPORT                     AND
                    OIG RESPONSE TO THE COMMENTS

In this appendix, we present in full the comments on the draft report offered by the
Public Health Service (PHS), the Assistant Secretary for Management and Budget
(ASMB), the Assistant Secretary for Planning and Evaluation (ASPE), the Joint
Commission on the Accreditation of Healthcare Organizations (JCAHO), the
American Hospital Association (AHA), and the American Medical Association
(AMA). We also present our response to each set of comments.




                                        c-1
            DEPARTMENTOF WTH                  & HUMAN SERVICES                           l%Wl+l#th-


                                                                                          Memorandum
                OEC 8 !992
D8te        �




From       Assistant          Secretary       for Health


Subject	   Office of Inspector General (OIG) Draft Report “National
           practitioner           Data Bank--usefulness            ~d   ~pact       of   Reports      to
           Hospitals,          ” OEI-01-90-O0520
To
           Acting         Inspector       General,     OS


           Attached are the PHS comments on tie stiject ~IG draft report

           on the usefulness and impact of the infomtion   in the

           National Practitioner Data BanJc (Data B~)  to hospitals.

           We concur with the OIG report’s recommendations and are

           implementing the corrective actions to (1) further reduce the

           time between query and response uci make t~is a high priority
           in the next contract for operation of tie Data Bank, and
           (2) publish the established perfo~ce    indicators relating to

           the response time in the annual report of the Data Bank.

           In addition, we plan to (1) provide a copy       of the final OIG
           report to the Joint comssion     on ACCr~itatiOn        of Healthcare
           Organizations, and (2) recommend that they consider
           incorporating standards into Weir Upcofing        Scoring   guidelines
           and Accreditation mual     for Hospitals addressing how quickly
           hospitals should query the Data Bank after receiving
           applications for privileges.

                                              /7

                                                         ov%AfppDrpHm
           Attachment

                                           P   times   O. Mzmon,                �   �




                                                            c-2
      �




         COMMENTS OF THE PUBLIC HEALTH SERVICE ON THE OFFICE OF

      INSPECTOR GENERAL [OIG) DWU?T REPORT “NATIONAL PMCTITIONER

      DATA BANK -- USEFULNESS AND IMPACT OF REPORTS TO HOSPITALS”

                            0EI-01-90-O0520


 OIG RECOMMENDATION

 The PHS should seek to further reduce the time between query
 and responset and should make this a high priority in its next
 contract for operation of the Data Bank.
 PHS COMMENT

We concur. AS acknowledged by C)IG in the draft report, we

have already initiated actions to further reduce the time

between query and response by automating the query process.

Software for providing electronic queries is being distributed

to approximately 2,000 hospitals and, so far, over 500

electronic     queries      have been processed    with positive results.

The first    set of      electronic   queries   was processed within 48

hours of their receipt. We are also pla~ing to design and

implement electronic query responses before the end of the

current Data Bank contract.


We have also initiated          action8       to   make the reduction      of time   a
high priority    in the      next    contract       for operation     of the Data
Bank.    In June   1992,     HRSA asse.mbl~          a team to focus on the
competition for the next Data Bank contract.                     The team has

held several workshops and meetings to assess                    the needs and
preferences of the Data Bank users. Based on                     interactions
with the users, the team is well aware of the                    need for and the
importance of reducing the time between query                    and response.
AS the team proceeds to develop the request for proposals for
a new Data Bank contract, primary consideration is being given
to providing direct on-line transmission of queries and
reports, and of system outputs. The turnaround  the  between
Wery  and response will be greatly reduced by using the “on-
line” approach.                                                                          :


OIG RECOMMENDATION


The PHS should publish recently established performance
indicators relating to the response time in its annual report
on the Data Bank.
PHS COMMENT
We concur.  We will work with the contractor to include the
performance indicator statistics in (1) the Data Bank’s annual
reportt and (2) reports to the Data Bank Executive Committee.



                                           c-3
.   #




                                                                         2


        OIG RECOMMENDATION
        The Joint Commission on Accreditation of Healthcare
        Organizations (JCA.HO)should establish ~idelines on how
        quickly hospitals should query the Data Bank after receiving
        applications for privileges.
        PHs COMMENT

        We concur.  We will recommend to JMO    that they    consider
        incorporating standards into their upc~ng    Scoring    guidelines
        and Accreditation Manual for Hospitals addressing how quickly
        hospitals should query the Data Bank after receiving
        applications for privileges. The recommendation is consistent
        with JC.AHO’Sefforts to stren~en   credentials review and
        professional peer review proces8e8. Upon receipt of the final
        OIG report, we plan to send a copy of the report     together with
        our recommendation as stated abcve to JCA.HO.




                                     c-4
                     OIG RESPONSE      TO PHS COMMENTS

We are encouraged by PHS’S actions to date toward minimizing response times and its
pledge to publish related performance indicators. We direct PHS’S attention to
comments on our report from ASMB, which contain additional suggestions for PHS.
Although we have not added these suggestions to our report, we believe they may
have merit.




                                                                 .




                                        c-5
     %
* ,t-~lctf   ~




   .if!t
‘~bv,la
 7
                        DEPARTMENT       OF HEALTH&   HUMAN   SERVICES                  Office of the Secretary


                                                                                        Washington,   D.C. 20201
                                                      0CT231$IW



                 MEMOWWDT,JM       TO:     Bryan B. Mitchell                                    n
                                           Principal Deputy Ins e tor G          er
                                                                         �



                 FROM                     Arnold R. Tompkins Wh+
                                          Assistant Secretary  for           anagexnentand” u get
                 SUBJECT             �
                                     �    OIG Draft Report: ltNaional
                                                                v      Practit’o r Data “
                                          Bank: Usefulness and Ihpact of Repor @ to
                                          Hospitalssl0EI-01-90-O0520


                 Thank you for the opportunity to review yOUr draft report,
                 llNationalPractitioner Data Bank: Usefulness and Impact of
                 Reports to Hospitals.ti Overall, we concur with the findings and
                 recommendations contained in the report. We would, however, like
                 to offer some comments and several additional recommendations
                 (attached).

                 If your staff have any questions about this response, please have
                 them call Neil J. Stillman, Deputy Assistant Secretary for
                 Information Resources Management, at 690-6162, or Joanne ~ato~
                 Office of Information Resources Management, at 690-835s.

                 Attachment




                               .




                                                               C-6
                                          OIG   Draft    Report
                           ‘fNational       Practitioner        Data Bank:
                Usefulness        and     Impact     of Reports     to Hospitalsll




Overall, we concur              with your         findings.       We would,          however,        like
to   suggest       several      additional          recommendations,       as        follOWs:

     One of your          recommendations              suggests       that     PHS make improving
query      response       time      a high      priority        in the next          contract.         We
agree,       but believe          that     this     should     also     be a high priority               for
the current          contract.           We agree        that     PHS has made considerable
improvement          in this        area     over the first           18 months.           Since
contractual          standards          for turnaround            time exist,          we think      that
additional         emphasis         for timeliness            needs     to be placed           on the
current       contractor          and that        the contractor            be held       accountable
for maintaining             this      standard.        The report         indicates        that    the
current       system      contract         expires       in December,          1993.       However,        PHS
is in the process               of requesting            a ten-month         extension         to  the
current       contract.          We would not want to delay the enforcement of
this requirement for two years or more.

-    A recent       GAO study       concluded     that     timeliness         would    be improved
considerably          if the Data Bank required               the use of Social              Security
Numbers      (SSN) for inquiries.              This     would allow          for more accurate
matching      of data       and fewer       exception reports (which require
manual     investigation          to resolve).          A major      reason       for delayed
response      time      to queries is that the inquiry does not always
contain enough unique identifying                     info~ation           to result       i.n an
accurate      match.        This    problem    is greatly         reduced       by the use of
the SSN.        The use of the SSN is currently                     voluntary.           We
recommend       that      PHS be encouraged         to seek       legislative         authority
that    would     require      the use of Social           Security        Numbers      for reports
and inquiries           to the Data Bank.

     Although        hospital       officials         found    58 percent         of Data Bank
reports      useful,       your     report       indicates      that      Data    Bank reports      ‘-
rarely     affected        hospital        privileging         decisions.          The report  goes
on to say that those hospitals that did not consider the reports
useful felt this way because the reports did not help them to
judge     the competency      or professionalism           of the applicant.                         We

suggest      that    PHS work with    Data Bank customers             in defining

additional        data  needs  that   will     increase     the usefulness         of                these

reports,       as part   of the new system          design    requirements.



                                                         c-7
  ,


As noted in your report, PHS is currently in the process of
determining priorities and strategies  for procuring    its   second
contract for administration of the Data Bank.      The Office   of
Information      Resources    Management     has been given  the
responsibility       to provide    technical     SUppOrt to this          effort.         It
is our opinion that the new system                 design    should    support a
Virtually   paperless        environment       and provide     interactive        access     to
the user.    We believe         that   this    type  of design      will    not   only   cut
down on errors      significantly,          but can also     reduce      costs    and
increase  the timeliness           of responses     to our customers.




                                            -2-

                                             C-8
                      OIG RESPONSE       TO ASMB COMMENTS

We agreewith the spirit of all of ASMB’S suggestions; nevertheless, we have not
incorporated them into our report. We believe that PHS, by introducing electronic
querying capabilities, is already striving to improve response time during the current
contract. We believe that PHS’S work with the Data Bank Executive Committee and
regular communications with user groups constitute sufficient efforts to identify
additional data needs. (Furthermore, the hospitals we surveyed were given the
opportunity to identify useful additional data, but no type of data was identified by
more than a handful of respondents.)      Finally, although we recognize that the use of
Social Security Numbers could speed the matching of reports and queries, we cannot
endorse this proposal without analyzing its costs, benefits, and privacy implications.




                                          c-9
           DEPARTMENT OF l-iEALTH& HUMAN SERVICES                                           Officeof   the Sacretary

 #
7J*V4,
 7 Q                                                                                        Washington,    D.C.   20201


                                               DEC 241992


          TO:             Bryan B. Mitchell
                          Principal Deputy Inspector General
         FROM:            Assistant       Secretary     for
                          Planning       and Evaluation

         SUBJECT :        Comments   on the Draft               Report,  “National    practitioner
                          Data Bank:    Usefulness               and Impact    of Reports      to
                          Hospitals”

         This     OIG report        addresses       an important           issue,      the usefulness              of
         the data        from the National           Practitioner            Data Bank (NPDB) to
         hospitals         and entities        who grant        privileges          to practitioners.
         Unfortunately,           for the reasons            detailed        below,      I am concerned
         that    the information            provided       in the draft           report     fails    to
         materially         deal   with,      and does not substantially                    answer,     the
         issue     of concern.           Indeed,     those      data     used by OIG to conclude                       the
         NPDB is useful           could     be used      as well       to support         the opposite
         conclusion:           because      the NPDB data           generally         have not been
         employed       as key components            in hospitals’            privileging
         determinations,           the purpose         intended        by Congress,          the NPDB’s
         usefulness         has been low.

         First, the reader has no basis for determining the extent to
         which the sample matches queried accurately reflect,
         statistically, the universe. Absent a power analysis, or at
         least confidence intervals, the appropriateness of weighting
         responses up to the universe of hospitals is unclear.

         Second,     the    “usefulfless”      dimension    lacks   precision,       operational
         substance       and specificity.          The key determinant         used    in the
         report    to test      accuracy     seems    to be whether      hospital      respondents
         believe     the NPDB data        were accurate.         To determine       accuracy      by
         polling     opinion,       the real    basis    of OIG’S conclusion         here, lacks
         any substantial rigor.
                                      .
         On the dimension of uniqueness, providing data not elsewhere
         available, the NPDB appears to have scored well: nearly 40
         percent of respondents indicated the NPDB reports provided at
         least some information not otherwise available to them and
         approximately half indicated the NPDB gave them info~ation not
         provided by the involved practitioner.




                                                         c-lo
 Page 2 - Bryan B. Mitchell
These data, however, seem to have had ~    modest decisional
consequences. Only 2 percent (3 of 142) said they would have
made a different decision without the data bank report -- that
is, with virtually no exception, the data bank report did not
make a difference to the granting of privileges. Moreover,
approximately 40 percent of respondents said the information was
not useful (questions 26 and 28). And, for those respondincr~t
the data were “useful,” the modal explanation given w~s tha< the
NPDB report confirmed information secured elsewhere.

In sum, conclusions of the OIG report -- U the data on which it
is based are statistically valid -- seem to support are three-
fold :

     1.    Information on which decision makers                 appear    to     have
          made their     privilege       determinations        was readily
          available    from other        sources.

     2.   Hospitals    did   not   use    the    NPDB information        in     the   way
          Congress intended, i.e., to determine the competence of
          physicians. They indicated that inforxnation about
          small payments (defined as $30,00C)on page 7) is useful
          generally (page 7) but not in determining the
          competence of practitioners (page 10, where small
          payments are redefined, without explanation, as less
          than $20,000).
     3.   On balance, based on hospitals’ reported responses, the
          data bank seems to provide nice-to-know information
          which has had littl& impact in deciding whether to
          grant privileges.

If you have any questions regarding these                 comments,    please
contact Elise D. Smith at 690-6870.




                       ( c
                                                Gerry




                                         C-II
                      OIG RESPONSE        TO ASPE COMMENTS

The ASPE notes that although a majority of hospitals surveyed rated the reports they
received “useful,” a very low number of hospitals cited an effect of Data Bank reports
on privileging decisions. The ASPE argues that these data lead the reader to
“opposite conclusions].”

This argument, we believe, confuses the distinction we make in the report between
usefulness and impact. Usefulness measures the reliability and uniqueness of Data
Bank reports and, more importantly, hospital officials’ attitudes toward them. Impact,
on the other hand, measures the actions that hospital officials took after receiving
reports. A report that has no impact can still be useful if the user perceives it to be
so.

The ASPE criticizes our definition and measurement of “usefulness.”        We disagree
with ASPE’S criticism. We believe it was appropriate for us to allow       our survey
respondents to interpret our questions on usefulness as they saw fit.      What ASPE sees
as a lack of “precision, operational substance, and specificity,” we see   as a chance for
hospitals to assess the Data Bank’s information on their own terms.

We question ASPE’S second conclusion on page 2 of its comments. our results do not
necessarily demonstrate that hospitals are not using the Data Bank to determine the
competence of physicians. True, few hospitals have denied privilege requests from
physicians who have been reported to the Data Bank. But Congress surely did not
intend that the privileges of all or even most practitioners reported to the Data Bank
be denied. Furthermore, Congress likely did not intend that reports from the Data
Bank be sufficient information on which to base privileging decisions. We believe that
by contributing to the information available to hospitals the Data Bank is helping
hospital officials to judge the conduct and character of practitioners, even when the
officials ultimately decide to grant privileges as requested.

At ASPE’S suggestion, we have changed our report so that we consistently define small
malpractice payments as being under $30,000. We have also provided, in the
methodology section and with endnotes, confidence intervals for the statistics we
present.




                                          C-12
                              ,
                                            hint Wmnisslon
                                       o~ AcrJrultarw   Qt Htmarr   t?qumwws




                                                                                   I



                                                                               .

November b, 1992



3~ax~   3.   $iicckell
principal Deputy Inspector Gmerai
Office of the ~nspector GeneraL
Dapartmnc   Of kbA~th and Human se~ices
l?ilbuc J. Cohen Building - I@. SZSO
330 Independence Ave., S.W.
Vashingcom, DC ?0?01



This is in response co your le~cer of Octobez 5, 199Z which invites tb=
comments of the Joint Commission on Acc%sditation of iiealthca~e
0zganiza~~0n3      draft inspection repart.~Nationalp~act~t:one~
                    on your
Data Bank: Usefulnessand Impact of Reports to HospiUiM.m ThXs reparc
recommends that the Jofnt Commission establ~sh      @dellnes   on how @ckly
hospi~als    should query tha Data Bank (NPDB) after receiting   app~iCac~OnS
for privileges.

Joint Cvuuuis6ion acczeditarinn     standards for hospitalspresen~lytequi~e
chat therebe medicalstaff,and gwernlng body bylawsand that these
corn~lemencarydocuments specifythe timef~~s withinwhich requests foz
medical scaf~ rnebership     ~md prt~~leges  be actedupQn. We would be
pleasedto consi&r i~CIUS~~nGf & sp==if~==t~c~ ~= C’:p ~ccredi~tzon
sumey scoring guidelines chat would direct       attan~ion to the need for the
t$melyseeking uf Lnformatiori from the Nl?IX as an integral     of evaluting
applications     for privileges.

We commend you and your acaff fm this ehozough ad thoughtful     review                of
the opetac+on of the NPDB, and trust that the foregoing response    will               be
helpfulto you.



                                   \


President           .


                                                           C-13
American                       Hospital             Association




                                                                                                            —   .——. -.   _-—
s-lo         X0111)          I   .ILL    \llt)l L”l)ll\L          l,)   ..111\\lll L’1,lL’lL’@)olw
( 111( ,1$(),           llllll(ll\        (>()(11   I

    1( ’1( ’ld)l)ll,’          :1.2     .!so   (d)()(l

(     .Il~l(’    ,\,l(lr~’s~          .\Alt     I( )S1’




     November 25, 1992




     Mr. David R. Veroff
     Office of Inspector General
     Office of Evaluation and Inspections
     Region 1
     John F. Kennedy Federal Building
     Boston, MA 02203

                        Re:                    National      Data Bank: Usefulness and Impact of Reports to Hospitals
                                                     Practitioner
     Dear Mr. Veroff

      On behalf of the American Hospkal Association (AHA) and its more than 5,200 hospitals, I
      welcome the opportunisty to comment on your draft report “National Practitioner Data Bank:
      Usefulness and Impact of Reports to Hospitals. ” Since AHA members are principal users of
      Data Bank information and the chief financial SUppOrtfor Data Bank operations, the AHA k
      very interested in knowing how hospitals Use Data Bank information and whether hospitals
      find the information useful during their credentialing and privileging process.

      Withrespect
                to“Usefulness
                           toHospitals,
                                    ” theOffice
                                              ofInspector
                                                       General
                                                             (OIG)makesthe
      following
             findings
                    that
                       theAHA wishes
                                   tocommenton:
      �
                        Forty percent of Data Bank reports have provided information previously unknown to
                        hospital staffs.
       �
                        The Data Bank has delivered accurate reports to hospitals.
       a                The lMa 13ank’s average time has been improving ste~dily.
       �
                        Hospital officials found 58 percent of Data Bank reports to be useful (e.g., they
                         confirmed
                                information,
                                         etc.)
      MM Comments: One ofthepurposes
                                   oftheDataBankk tobecomea national
                                                                  repository
       foradverseactionand malpractice
                                    information.   Sinceindividual   states havedifferent
       reporting
              criteria,
                     ithasbeendifficult,
                                     ifnotimpossible,   forhospitalsinonestate  toreceive
       practitioner
                information          in a second state. We are pleased that the Data Bank
                          fromhospitals
       is meeting this challenge and is filling this information gap.

       Since hospitals
                   simplydo nothavethecapacity
                                             toverify
                                                    allinformation
                                                                thatcomestothem
       fromnumerous sources,
                          we arepleasedthat       setupbytheData Bank is providing
                                          thesystem
        hospitals
              withaccurate
                        reports
                             andconfirming
                                        information
                                                hospitals
                                                      hadreceived
                                                               fromother
        sources.



                                                                                                     C-15
                   OIG RESPONSE      TO JCAHO COMMENTS

We thank JCAHO for considering a specification related to timely querying of the
Data Bank. We direct
                   JCAHO’S attention     toPHS’Scomments,     whichdetail PHS’S
intent
     toworkwithJCAHO on this
                           matter.




                                       C-14
Mr. DavidR. Veroff
November25,1992
Page2

With respect to “Impact on Decisions, ” the OIG made the following findings:
�	
      If hospitals had not received the Data Bank               reports,     their   privileging   decisions    would
      have     been   different   one percent    of the time.

�
      Eighty percent of Data Bank reports had little chance to have an impact on hospitals’
      privileging decisions.                                           .
�
      Nineteen percent of Data Bank reports arrived before hospitals’ decisions were finalized
      and contained information that neither the practitioner involved nor any other sources
      had provided, but did not have an impact on hospitals’ privileging decisions.

AHA Comments: We find this part of the OIG report to be most telling. We were surprised
that although hospitals may have received information they did not already have on
practitioners, the information did not affect the hospitals’ privileging decisions. This may be
due, in part, to the newness of the Data Bank and the need for hospitals to integrate Data
Bank reports into their privileging processes. On the other hand, this may also speak to the
care and attention hospitals already devote to credentialing and the sufficiency of physician
information provided by other sources.

With the Data Bank playing only a supplemental role, as a “back-up” tool to compare
practitioner information, we question whether the Secretary of Health and Human Services
can justify the high administrative and financial burdens on hospitals to support a back-up
tool. If the Data Bank should expand to include licensing data on all practitioners, the
administrative and financial burdens would increase, whereas the utility of the information
during the credentialing process would still remain questionable.

Finally, the OIG recommends that the Public Health Service seek to further reduce the time
between query and response and that the Joint Commission for Accreditation of Healthcare
Organizations (JCAHO) should establish guidelines on how quickly hospitals should query the
Data Bank after receiving applications for privileges.     We agree that the time between
querying and Data Bank response should be improved.           This will become more of an
imperative if the Data Bank should expand to include licensing information on all
practitioners. The AHA, however, has reservations with the recommendation that the JCAHO
develop querying guidelines for hospitals, since most hospitals, by now, have developed their
own procedures for querying and reporting to the Data Bank. These procedures may vary
from one institution to another, depending upon the Size of the institution and the number of
practitioners who are privileged and credentialed.     To request that the JCAHO establish
guidelines, could further complicate the already complex querying responsibilities placed
upon hospitals by the Health Care Quality Improvement Act.

The OIG and Public Health Service will need to study the long term effect the Data Bank
has upon peer review to determine how Data Bank reports are used by hospitals in privileging
practitioners.  The AHA has recently distributed a survey to a small number of hospitals
that will look further at the effect of the Data Bank on peer review, operational concerns of
hospitals, cost/benefit ratios, and suggested Data Bank improvements.          Once we have
reviewed the results of that survey, we will be in a better position to comment on the effects
of the Data Bank.

In summary, although we are pleased that the Data Bank is able to furnish hospitals with
practitioner     information      they   may   not already   have,    we   are   concerned     that this   information
has not had a more positive, influential             �               redentialing and privileging.         No fhrther
Mr. David R. Veroff
November25, 1992
Page 3


expansions would appear to be justifiable at this time given the current questions raised
concerning the Data Bank’s utility. Another study looking at this direct effect should be
instituted by the OIG within the next two years.

If you shouldhaveany questions
                            regarding
                                   ourcomments,feelfreeto contact
                                                                IlaS.
Rothschild at 312/280-6682.
 .


  .  /
‘72j& -
Frednc J.   tin
Senior Vic President
and General Counsel




                                             C-17
                      OIG RESPONSE       TO AHA COMMENTS

Although the AHA is pleased with the information that the Data Bank is providing, it
questions the cost-effectiveness of the Data Bank as a “back-up tool.” We believe our
report makes clear that in many cases the Data Bank provides information unavailable
through any other source, and that in at least three cases it alone has led hospitals to
deny privileges to practitioners. We believe the Data Bank is much more than a back-
up tool.

We disagree that guidelines from JCAHO will complicate hospitals’ querying practices.
Instead, we believe that such guidelines will highlight the importance of timely
querying and will establish minimum standards in that regard. We trust that JCAHO
will consider the concerns of all sizes and types of hospitals in formulating its
guidelines.




                                         C-18

 American          Medical Association
 l’tl~slci:in>dedicated[0 the health Of.Wericu



  JiiIIW S, T~dd, MI)            515Iiorth Mite  Street
  Exwutiyc \’iccI’middnt         Chicago,Illinois (XM1O




  January         5, 1993


  Bryan B. Mitchell
  Acting Inspector General
  Department of Health and Human Services
  Office of Inspector General
  330 Independence Avenue, SW
  Washington DC 20201

  RE :   Draft             Report,           NPDB:USEFULNESS     &   IMPACT   OF   REPORTS   TO
  HOSPITALS

  Dear Mr. Mitchell:

  The American Medical Association (AMA) is pleased to respond to
  your request for comments on the Office of the        lnSPector
  General’s (OIG) draft report, NATIONAL PRACTITIONER DATA BANK:
  USEFULNESS AND IMPACT OF REPORTS TO HOSPITALS, September, 1992.
  The stated purpose of this study was to assess the utility to
  hospitals of the information in the National Practitioner Data
  Bank (NPDB) .

  After carefully reviewing the September draft report, the AMA
  concludes that the draft report only partially fulfilled its
  intended purpose.  There are serious flaws in the draft report
  that should be corrected before release of a final draft.

  The most serious deficiency in the draft report is that it
  totally ignores the overwhelming majority of NPDB reports to
‘ hospitals (over 1.5  million)   and uses  as its survey universe
  only the small number of reports that indicate an adverse action
  or malpractice payment (19,122)  . In fact, the draft report does
  not even disclose the number of reports sent to hospitals that
  indicated no adverse actions or malpractice payments on behalf
  of a practitioner.

  There is no good rationale presented in the draft for excluding
  some 99% of NPDB reports from the survey universe.      A valid
  measure of the utility of the NPDB to hospitals would require
  the inclusion of all users who are required to query, to pay,
  and who receive information.

  The survey results presented in the draft may be misleading                                as
  a consequence of the narrow survey universe.  The draft


                                                          C-19
Bryan B. Mitchell
Page 2

concludes that a majority of NPDB reports were “useful” to
hospitals. The definition of “usefulness” includes reports that
merely  confirm what the hospital already knew. This definition
of usefulness is equally applicable to hospitals that receive
reports confirming    that there were no adverse actions or
malpractice payments.     Whether or not the majority of such
reports would be considered “useful” is an important   question

                                                 .
.

left unanswered by the draft report.


The inappropriately narrow survey universe also affects the most

significant and relevant finding in the draft--the proportion of

reports that had any impact at all on the credentialling

decision.    The draft states that the reports in its survey
universe “rarely” led hospitals to make credentialling decisions
they would not have made without the reports.         The actual
weighted result was that only 0.5% of reports in the survey
universe (of 19,122   reports) had any impact.     If the survey
universe had included the 1.5 million reports that indicated no
adverse actions or malpractice payments, a truer picture of the

impact    of  NPDB  reports   would   emerge  and   the  draft’s

characterization of actual impact being “rare” would be seen as

a gross exaggeration.


Another deficiency of the survey is that the question regarding
the “usefulness” of NPDB reports had little relation to the
central purpose    of assessing    the utility of the NpDB tO
hospitals. The finding that a majority of surveyed reports were
found “useful” is nearly meaningless.       “Usefulness” includes
everything from reports that merely confirm information already

known, but which was not felt to have any bearing on the

credentialling decision, to reports that contained previously

unknown   information  helpful   in judging     competency.      An

assessment of the utility of      the  NPDB  should  focus   on the

purpose for which it was created.     Otherwise, even an ordinary

telephone directory, which verifies the correct address of the

practitioner    could  be   found    as   “useful”    to   hospital

credentialling as the NPDB.


The draft also misinterprets the survey results regarding large
and small malpractice payment reports and erroneously concludes
that small malpractice    payments (less than $30,000)   should
continue to be reported. The draft bases this conclusion on the
finding that an equal amount of large and small payments were
rated “useful. “

Two   additional   relevant   findings   suggest   the  opposite
conclusion:   First, the draft states that many of the reports
that provided information not previously known to the hospital,
but did not affect privileging       decisions,  involved  small

malpractice payments.   The draft concludes that hospital boards

apparently do not consider these incidents serious enough to

                               C-20
Bryan B. Mitchell
Page 3

warrant adverse privilege decisions. Second, in a footnote, the
draft reveals that, even among hospitals that rated malpractice
payment reports “useful”, only 25% found small payments helpful
in judging competency.   (Large malpractice judgments showed an
equally weak correlation with judging competence but this hardly
justifies reporting small malpractice payments, which account
for 44% of reports but only 4% of payments. )

We urge you to consider our comments         carefully in order to
assess adequately the utility to hospitals     of the information in
the NPDB..




Jehes S . Todd , MD




                                C-21
                      OIG RESPONSE       TO AMA COMMENTS

We drawan important     dktinction between“theutility oftheDataBank tohospitals”
and“theutility             ofthe information in the Data Bank.” In this study, we
                 tohospitals
hoped to determine which of the many types of information collected by the Data
Bank were most helpful to users. (As it turned out, there were no significant
differences among the types of information we evaluated.) We surveyed only hospitals
that had experienced matches because only they had been exposed to this information.
We also examined what impact, if any, reports from the Data Bank have had on
privileging decisions. We assumed there would be no impact on decisions about
practitioners who had never been reported to the Data Bank, so there was no need to
include nonmatches in our sample.

The AMA takes issue with our definition of “usefulness.” As we stated above in our
response to comments from ASPE, we think that usefulness is properly defined by
users.

The AMA argues against our conclusion that small malpractice payments continue to
be reported to the Data Bank. Its argument is based on our findings that reports of
small payments do not cause hospitals to make adverse decisions on privileging and
rarely help hospitals judge the competence of practitioners.   But there are valid
reasons for retaining information in the Data Bank even under those circumstances,
such as judging the veracity of statements made on practitioners’ applications. In any
case, we believe that hospitals are best qualified to judge the utility of small payment
reports. We remind AMA that 57 percent of the recipients of small payment reports
considered those reports useful, and that small payment reports are apparently just as
useful as any other type of report.

We agree with AMA on two points: (1) that the utility of nonmatches remains
unknown, and (2) that adverse privileging decisions resulting from Data Bank queries
are even rarer than is suggested by our report. These questions could be addressed in
a future study of the Data Bank, one which considers nonmatches as well as matches.
We feel, however, that such a study would be premature at this point. The Data
Bank’s current match rate is artificially low because it has not had time to accumulate
a significant number of reports and because its users are apparently still learning how
best to utilize the information it provides.




                                         c-22
                               APPENDIX                   D
                                           NOTES


1.       Actions that must be reported include adverse decisions on hospital privileges,
         including voluntary resignation; actions taken by State licensing boards on
         licenses, including suspension, denial, restriction, and revocation; and losses of
         membership in professional societies.

2.       OIG Final Inspection Report, “National Practitioner    Data Bank: Profile of
         Matches,” OEI-01-90-00522.

3.       The percentage of reports yielding information not provided by practitioners
         (47) is larger than the percentage of reports not provided by any source (40)
         because hospitals can be informed of a malpractice payment or disciplinary
         action by sources other than the practitioner.

4.       Ninety percent confidence internal: 8 percent to 32 percent.

5.       Ninety percent confidence interval: 1 percent to 19 percent.

6.       Ninety percent confidence intexval: 35 percent to 65 percent.

7.       Ninety percent confidence internal: 69 percent to 100 percent.

8.       This difference is statistically significant (Pearson’s chi-squared = 4.38, d~ = 1,
         P = .036). Adverse action reports were defined as coming from out of State if
         the State of the reporting entity was different from the hospital’s State.
         Because many physicians use out-of-State insurance companies, malpractice
         payment reports were defined as coming from out of State if the hospital’s
         State was different from the practitioner’s work state.

9.       Hospitals responding to our survey were already aware of the six malpractice
         reports from out-of-State sources. Because of our weighting scheme, these
         reports overshadowed the out-of-state adverse action reports, which hospitals
     .
         were less likely to know about.

10.      M. Holoweiko, “The malpractice data bank is turning into a Frankenstein,”
         Medical Economics, May 6, 1991, pp. 120-133.

11.      One hospital answered “no” to the question of whether the Data Bank report
         was accurate. The respondent explained that the Data Bank report had
         disclosed a letter of admonition from a State licensing board that the board
         itself had not disclosed to the hospital. Although the Data Bank report was
         inconsistent with another source of information in this case, it was not
         inaccurate.


                                            D-1


             --
12.    This hospital said it knew of four malpractice payments made on one
       practitioner’s behalf since the Data Bank opened that were not mentioned in
       the Data Bank response. The hospital found out about these payments from
       the practitioner involved and from another hospital.

13.    All references to queries in this report refer to queries about practitioners who
       had been reported to the Data Bank. We do not have any information about
       queries to the Data Bank that did not result in matches.

14.    This proportion is calculated from only 4.06 weighted observations.   The margin
       of error is 41 percent.

15.’   Ninety percent confidence interval: 49 percent to 83 percent.

16.    We defined response time as the time a hospital had to wait between
       submitting a query to the Data Bank and receiving a report. We report the
       median rather than the mean because the mean was affected by a small
       number of very long response times.

       The Data Bank operators use a different measure of response time to assess
       their performance, because they have no control over the time that queries and
       responses are in the mail. They look only at the time between a query’s arrival
       at their facilities and the time they mail a response back to the querier. For a
       further discussion of response and processing times, see page 12 and note 21.

17.    For example, they might match on name and date of birth, but not on license
       number or other unique identifier fields.

18.    Human operators can examine information such as address and medical school.
       Partial matches are only considered true matches if two operatom reach that
       conclusion
               independently.

19.    Ninetypercent       interval: 58 percent to 90 percent.
                   confidence

20.    Ninetypercent
                   confidence
                           interval: 51 percent to 69 percent.

21.    Ninetypercent
                   confidence
                           interval: 28 percent to 46 percent.

22.    Ninetypercent       internal: 22 percent to 38 percent.
                   confidence

23.    Totals do not add to 100 percent because respondents    could give multiple
       answers.

24.    Ninety percent confidence interval: 41 percent to 63 percent.

25.    These reports were also rated similarly in terms of usefulness in judging
       competency. Twenty-five percent of reports on malpractice payments under
       $30,000 were found to useful because they helped judged competency, while 23


                                          D-2
      percent of reports on payments of $30,000 or more were found useful for this
      reason. Twenty-nine percent of the smaller dollar payments were found not
      useful because they did not help judge competency or professionalism, while 20
      percent of larger payments were judged not useful for this reason.

26.   Ninety percent confidence interval: 4 percent to 12 percent.

27.   Ninety percent confidence interval: 4 percent to 12 percent.

28.   Ninety percent confidence interval: O percent to 2 percent.

29.   In one case, the practitioner’s requested credentials were restricted somewhat
      because the hospital did not perform certain procedures.

30.   In some cases, practitioners did not fail to disclose requested information. In
      these cases, the application forms were worded so that complete disclosure was
      not required. For example, they may have been required to say whether or not
      a malpractice payment had been made on their behalf, but not required to give
      the details of the payment that were available in the Data Bank.

31.   The Joint Commission on Accreditation of Healthcare Organizations (JCAHO)
      rates each hospital on the rigor of the hospital’s reporting requirements.     It
      expects hospitals to require physicians to fully disclose disciplina~ actions,
      voluntary surrenders of licenses or privileges, and malpractice judgments and
      settlements.

32.   On pages 4 and 5, we note that recent response times, as reported by hospitals
      in our survey, average 26 days. We calculated response time as the number of
      days between the dates our respondents requested information from the Data
      Bank and the dates they received Data Bank reports (see questions 3 and 4,
      appendix B, page B-2). Response time, therefore, includes the time it takes to
      mail queries to the Data Bank and the time it takes to mail responses to
      hospitals as well as the processing time at the Data Bank. Unisys’ turnaround
      time is only the processing time. Therefore, our finding is not necessarily
      inconsistent with the PHS reports that show it is usually meeting its goals.        :

33.   This figure differs from the 18 percent cited on page 10 because pending
      decisions were not included in the analysis on page 10.

34*   Although the universe of hospital matches as of March 19, 1992, numbered
      19,122, our sample was drawn from only 19,111 of those matches. There were
      11 matches involving hospitals that were excluded from the universe when our
      sample was drawn because at that time they were erroneously coded. We do
      not believe that the exclusion of this small number of matches introduced bias
      into our study. To remain consistent with our earlier “Profile of Matches”
      report, whichgavethecorrect     figure, we refer in this report to the true
      universe  of19,122  rather thanthe sample pool of 19,111.


                                         D-3
